APPENDIX
Decision of the court of appeals
United States v. Lucas Garcia, 831 F. App’x 90 (4th Cir. 2020) ..................... 1a
District court’s memorandum opinion
United States v. Lucas Garcia, 2019 WL 4195345 (E.D.Va. 2019) ................. 3a

United States v. Lucas Garcia, 831 Fed.Appx. 90 (2020)

§ 1326(a),
(b)(1). In his written plea agreement, Lucas
reserved the right to challenge on appeal the district court's
denial of his motion to dismiss the indictment. Finding no
error, we affirm.

831 Fed.Appx. 90 (Mem)
This case was not selected for
publication in West's Federal Reporter.
See Fed. Rule of Appellate Procedure 32.1
generally governing citation of judicial
decisions issued on or after Jan. 1, 2007. See
also U.S.Ct. of Appeals 4th Cir. Rule 32.1.
United States Court of Appeals, Fourth Circuit.

An alien who has been removed from the United States
pursuant to an order of removal, but reenters the country
illegally, may be charged with illegal reentry in violation

UNITED STATES of America, Plaintiff-Appellee,
v.
Anibal LUCAS GARCIA, a/k/a Carlos
Garcia Gomez, Defendant-Appellant.
No. 19-4906
|
Submitted: November 10, 2020
|
Decided: December 16, 2020

barred by

8 U.S.C. § 1326(d).

On a motion to dismiss an indictment, we review the district
court's factual findings for clear error and the court's legal

Appeal from the United States District Court for the Eastern
District of Virginia, at Richmond. Robert E. Payne, Senior
District Judge. (3:19-cr-00029-REP-1)
Attorneys and Law Firms
Geremy C. Kamens, Federal Public Defender, Joseph
S. Camden, Assistant Federal Public Defender, OFFICE
OF THE FEDERAL PUBLIC DEFENDER, Richmond,
Virginia, for Appellant. G. Zachary Terwilliger, United States
Attorney, Philip Alito, Aidan Taft Grano, Assistant United
States Attorneys, OFFICE OF THE UNITED STATES
ATTORNEY, Alexandria, Virginia, for Appellee.
Before AGEE and RICHARDSON, Circuit Judges, and
SHEDD, Senior Circuit Judge.
Opinion
Affirmed by unpublished per curiam opinion.
Unpublished opinions are not binding precedent in this
circuit.
PER CURIAM:
Anibal Lucas Garcia (Lucas) pleaded guilty to illegal reentry
of an alien who had previously been removed from the United
States after conviction for a felony, in violation of

of
8 U.S.C. § 1326(a). Here, Lucas seeks to challenge
his underlying removal order, which was issued in 2010
following his conviction for forgery of a public record under
Va. Code Ann. § 18.2-168. He argues that the Government's
use of his 2010 removal order against him violated due
process because the removal order was void and its use was

8 U.S.C.

conclusions de novo.
United States v. Hosford, 843 F.3d
161, 163 (4th Cir. 2016). A defendant may not challenge
the validity of the removal order unless the defendant
demonstrates that:
*91 (1) the alien exhausted any administrative remedies
that may have been available to seek relief against the
order;
(2) the deportation proceedings at which the order was
issued improperly deprived the alien of the opportunity
for judicial review; and
(3) the entry of the order was fundamentally unfair.
8 U.S.C. § 1326(d). To establish that the entry of an
order was fundamentally unfair, the defendant must show
that “(1) his due process rights were violated by defects in
his underlying deportation proceeding, and (2) he suffered
prejudice as a result of the defects.”
United States v. El
Shami, 434 F.3d 659, 664 (4th Cir. 2005) (internal quotation
marks omitted).
Lucas first attempts to challenge his 2010 removal order
outside of the
§ 1326(d) requirements by claiming that
the immigration authorities acted ultra vires in entering the
order against him because his Virginia forgery conviction did
not qualify as an aggravated felony under the Immigration
and Nationality Act (INA). Lucas, however, must satisfy the

App. 1a

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

1

United States v. Lucas Garcia, 831 Fed.Appx. 90 (2020)

criteria set forth in

§ 1326(d) in order to collaterally attack

his removal order. See
United States v. Cortez, 930 F.3d
350, 357 (4th Cir. 2019) (“[T]here is no freestanding rule
allowing for collateral attacks based on a lack of subject
United States v. Gonzalezmatter jurisdiction.”); accord
Ferretiz, 813 F. App'x 837 (4th Cir. 2020) (No. 19-4409)
(rejecting an alien's attempt to collaterally challenge his
removal order apart from the § 1326(d) requirements as an
ultra vires agency action), petition for cert. filed, No. 20-6049
(U.S. Oct. 16, 2020).
We further conclude that Lucas’ collateral challenge to his
2010 removal order fails on the ground that he cannot
demonstrate that its use was fundamentally unfair as required
by
8 U.S.C. § 1326(d)(3). * In Alvarez v. Lynch, 828 F.3d
288, 298 (4th Cir. 2016), we held that, under the categorical
approach, Va. Code Ann. § 18.2-168 is an aggravated felony
under the INA. Although Lucas argues that Alvarez is not
binding on this panel because the decision did not analyze
or address the “grounds of overbreadth” that he raises on

appeal, we have considered Lucas’ claims and find them
without merit. Accordingly, because Lucas’ Virginia forgery
conviction was an aggravated felony under the INA, he
cannot “demonstrate that, but for the errors complained of,
there was a reasonable probability that he would not have
been deported” and, therefore, cannot meet the fundamental
unfairness requirement of
§ 1326(d)(3).
United States
v. Lopez-Collazo, 824 F.3d 453, 462 (4th Cir. 2016) (internal
quotation marks omitted).
Accordingly, we uphold the district court's denial of the
motion to dismiss the indictment and affirm the criminal
judgment. We dispense with oral argument because the
facts and legal contentions are adequately presented in the
materials before this court and argument would not aid the
decisional process.
AFFIRMED
All Citations
831 Fed.Appx. 90 (Mem)

Footnotes
*

Based on this finding, we need not consider whether Lucas has met the other requirements set forth in
1326(d).

End of Document

§

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

App. 2a

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

2

United States v. Garcia, Slip Copy (2019)

Gov't Ex. 1. The Government's witness, Deportation Officer
Richard Tine (“Tine”), testified that Lucas entered the United
States through the Atlanta, Georgia airport, on a visa that

2019 WL 4195345
Only the Westlaw citation is currently available.
United States District Court, E.D. Virginia,
Richmond Division.

expired on July 15, 2005. 4
Following the expiration of the visa, Tine testified that there
was no record of Lucas leaving the United States. Then,
on September 30, 2010, Lucas was convicted of felony
forgery of public records in violation of Va. Code § 18.2-168
(hereinafter, the “public records forgery” or the “conviction”).
Gov't Ex. 2. The offense date for the conviction was July 13,
2008, and the record is not clear why it took more than two
years for Lucas to be convicted. Lucas was sentenced to two
years imprisonment with one year and ten months suspended

UNITED STATES of America,
v.
Anibal Lucas GARCIA, Defendant.
Criminal No. 3:19-cr-29
|
Signed 09/03/2019
|
Filed 09/04/2019

for the public records forgery. 5 Id.

Attorneys and Law Firms
S. David Schiller, Office of the U.S. Attorney, Richmond, VA,
for United States of America.

MEMORANDUM OPINION
Robert E. Payne, Senior United States District Judge
*1 This matter is before the Court on the DEFENDANT'S
MOTION TO DISMISS THE INDICTMENT (ECF No. 10)
(the “Motion”), which, for the following reasons, was denied
by an ORDER entered on August 9, 2019 (ECF No. 32).

*2 After Lucas was convicted of the public records forgery,
immigration officials began expedited removal proceedings
against him pursuant to 8 U.S.C. § 1228, which establishes
an administrative removal procedure for certain aliens who
have been convicted of “aggravated felonies,” as defined by
the Immigration and Nationality Act (“INA”). On December
6, 2010, immigration officials served Lucas with a “Notice
of Intent to Issue a Final Administrative Removal Order,” or
Form I-851 (hereinafter, the “I-851 form”). Gov't Ex. 3. The
I-851 form is written entirely in English, and the “Certificate
of Service” shows that the I-851 form was “explained and/or
served...to the alien in the [English] language.” 6 Id.
The front side of the I-851 form explained to Lucas that he
was not lawfully present in the United States; that he had

BACKGROUND

been convicted of an “aggravated felony,” as defined by

I. Procedural Context
Anibal Lucas Garcia (“Lucas”) 1 was charged in a one-count
indictment with violating 8 U.S.C. § 1326(a) and (b)(1)
by re-entering the country after having been removed. ECF
No. 1. Lucas filed the Motion on May 21, 2019, and the parties
fully briefed it. The Court received evidence and heard oral
argument on the Motion on August 7, 2019, 2 and the Motion
was denied by an ORDER entered on August 9, 2019. ECF
No. 32.
II. Factual Background 3
Lucas is a citizen of Guatemala, and does not have legal status
in the United States. Lucas first entered the United States
legally on a work visa (the “visa”) on December 12, 2004.

U.S.C. § 1101(a)(43)(R);

7

8

and that he was removable from

the United States pursuant to 8 U.S.C. § 1227(a)(2)(A)(iii).
Gov't Ex. 3 at 1. The I-851 form also notified Lucas that he
could be represented by counsel; that he could respond to the
charges on the I-851 form; and that he could remain in the
United States for 14 days to file for judicial review pursuant
to

8 U.S.C. § 1252. Id.

The reverse side of the I-851 form shows that Deportation
Officer Long served the I-851 form on Lucas in person and
explained it to him in English, as discussed above. Gov't Ex.
3 at 2. Lucas signed on a line indicating that he had received
the I-851 form. Id. Below that section, Lucas selected a check
box that stated: “I Do Not Wish to Contest and/or to Respond

App. 3a

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

1

United States v. Garcia, Slip Copy (2019)

to Request Withholding of Removal.” Id. Lucas then selected
two check boxes below that. First, he selected a box that read:

Deportation,” or Form I-205 (also in English), was also issued
for Lucas on December 6, 2010, and signed by Munroe. Gov't
Ex. 5.
On December 20, 2010, Lucas was removed from the United
States pursuant to the 2010 Final Order. Gov't Ex. 5 at 2.
When he was removed, Lucas received a “Warning to Alien
Ordered Removed or Deported.” Joint Ex. 1 at 6-L. That
form, written in English, informed Lucas that, because of his
removal for a “crime designated as an aggravated felony,”
Lucas was prohibited from “entering, attempting to enter, or
being in the United States” “ [a]t any time.” Id.

I admit the allegations and charge in
this Notice of Intent. I admit that I am
deportable and acknowledge that I am
not eligible for any form of relief from
removal. I waive my right to rebut and
contest the above charges. I do not
wish to request withholding or deferral
of removal. I wish to be removed to
[Guatemala]. 8

After the December 20, 2010 removal, Lucas illegally
returned to the United States on an unknown date. Gov't Ex.
6. Lucas was arrested and charged with a DWI (in violation

Id. Second, he selected a box that read: “I understand that I
have the right to remain in the United States for 14 calendar
days in order to apply for judicial review. I do not wish this
opportunity. I waive this right.” Id. Both Lucas and Long
signed and dated this section on December 6, 2010 at 10:45
a.m. Id.
Long testified at the August 7, 2019 hearing about the usual
process of serving an 1-851 form on an alien. Long explained
that he would take both an English and a Spanish version of
the I-851 form to his meeting with the alien, and would ask
which language the alien preferred. If an alien did not speak
English, Long would contact the so-called “language line,” a
telephone number that provided interpreter services and the
I-851 form would be read by an interpreter.
However, if the alien spoke and understood English, it was
Long's practice to read the entire I-851 form to the alien in
English. Long further testified that the fact that the I-851 form
was served by him on Lucas in English indicated to Long
(from his experience) that Lucas would have indicated that he
could read and understand English.
*3 Also on December 6, 2010, a “Final Administrative
Removal Order,” or Form I-851A, was served on Lucas
in person by Long. Gov't Ex. 4 (hereinafter, the “2010
Final Order”). The 2010 Final Order, signed by Assistant
Field Office Director Matthew Munroe (“Munroe”), informed
Lucas that the basis of his removal was his conviction for
8 U.S.C. § 1101(a)
an “aggravated felony” pursuant to
(43) (R) (for the public records forgery). Id. The 2010 Final
Order was also written in English. Id. A “Warrant of Removal/

of
Va. Code § 18.2-266) in Chesterfield County, Virginia
on June 26, 2018 (no disposition is listed). Id. at 4. Then,
on February 3, 2019, Lucas was arrested and charged in
Chesterfield County with identity theft (in violation of Va.
Code § 18.2-186.3); providing false identification to law
enforcement (in violation of Va. Code § 19.2-82.1); contempt
of court (in violation of Va. Code § 18.2-456); and another
DWI (in violation of Va. Code § 18.2-266) (no dispositions
of these cases are in the record). Id. at 3-4. He was indicted
by the grand jury on the illegal reentry charge on February
21, 2019, see ECF No. 1, and was arrested on April 24, 2019.
ECF No. 5.

DISCUSSION
I. Framework For Collateral Challenges To Prior
Deportation Orders
Lucas has been charged with illegal reentry under

8

U.S.C. § 1326(a) and
(b)(1). To prove that charge, the
Government will have to establish, inter alia, that Lucas “has
been denied admission, excluded, deported, or removed,”
and that, thereafter, he reentered the United States without
the permission of the United States Attorney General.

8

U.S.C. § 1326(a). In
United States v. Mendoza-Lopez,
481 U.S. 828 (1987), the Supreme Court of the United
States held that, in illegal reentry cases, an alien has a due
process right to challenge the underlying deportation order.
Thereafter, Congress codified the due process requirements
in

App. 4a

8 U.S.C. § 1326(d). See United States v. Moreno-Tapia,

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

2

United States v. Garcia, Slip Copy (2019)

848 F.3d 162, 165-66, 169 (4th Cir. 2017); see also United
States v. Guzman-Velasquez, 919 F.3d 841, 845 (4th Cir.
2019). At bottom,
Section 1326(d) “is concerned with
failures of due process in an immigration proceeding that
would make it fundamentally unfair to rely on a removal order
coming out of that proceeding.” Moreno-Tapia, 848 F.3d at
169. The statute focuses the inquiry on whether there were
“procedural defect[s] in an immigration proceeding [that]
insulate[ ] the resulting order from judicial review....” Id.
Section 1326(d) sets out three elements that an alien must
prove to challenge the underlying deportation order. In full,
that subsection reads:
In a criminal proceeding under this section [ 8 U.S.C.
§ 1326], an alien may not challenge the validity of
the deportation order described in subsection (a) (1) or
subsection (b) unless the alien demonstrates that—
(1) the alien exhausted any administrative remedies that
may have been available to seek relief against the order;
*4 (2) the deportation proceedings at which the
order was issued improperly deprived the alien of the
opportunity for judicial review; and
(3) the entry of the order was fundamentally unfair.
8 U.S.C. § 1326(d) (emphasis added). The Fourth Circuit
has held that, to satisfy Section 1326(d)(3), an alien “must
show that (1) his due process rights were violated by defects
in his underlying deportation proceeding, and (2) he suffered
prejudice as a result of the defects.”

United States v. El

Shami, 434 F.3d 659, 664 (4th Cir. 2005) (quoting
United
States v. Wilson, 316 F.3d 506, 510 (4th Cir. 2003)). To
show prejudice, the alien must show that, “but for the errors
complained of, there was a reasonable probability that he
would not have been deported.”

Id. at 665. An alien

may be excused from meeting certain
Section 1326(d)
requirements if the underlying deportation proceeding was
procedurally flawed in a material way. See Moreno-Tapia,
848 F.3d at 169;
United States v. Lopez-Collazo, 824 F.3d
453, 459-62 (4th Cir. 2016) (due process violation where alien
was served the I-851 form in language he did not understand);
El Shami, 434 F.3d at 662-64 (excusal from

Sections

1326(d) (1) and
(d) (2) and due process violation where
alien did not receive notice of his immigration proceeding).
It is evident from the statutory text that the defendant must
Section
satisfy (or be excused from) all three elements of
1326(d) to succeed in a collateral challenge. The Fourth
United States v. Cortez, 930
Circuit's recent decision in
F.3d 350, 355-58 (4th Cir. 2019), confirms that view. There,
the Court of Appeals held that, while typically, the existence
of a prior removal order is sufficient to meet the government's
burden in an illegal reentry case, “there is an exception,
allowing a defendant to collaterally attack a removal order”
when a flaw in the original proceedings prevented the alien
from seeking review of the removal order at the time it was
issued.
Id. at 356. But, “[u]nder
8 U.S.C. § 1326 (d), a
noncitizen must make each of three showings to come within
that exception and mount a collateral attack,” citing the three
requirements of

Section 1326(d), discussed above. Id.

(emphasis added); see also
id. at 358 (raising “significant
doubts” that the jurisdictional argument raised by Cortez put
him outside the requirements of

Section 1326(d)).

The Fourth Circuit's approach outlined in Cortez confirms
what this Court has held in several cases. See, e.g., United
States v. Gonzalez-Ferretiz, No. 3:18-cr-117, 2019 WL
943388, *3-4 (E.D. Va. Feb. 26, 2019) (surveying Fourth
Circuit and district court decisions and holding “that an
alien may only challenge his underlying deportation order
by satisfying the three requirements of

Section 1326(d)”);

see also Moreno-Tapia, 848 F.3d at 166;
El Shami, 434
F.3d at 663; United States v. Gomez-Salinas, No. 2:19crl0,
2019 WL 1141063, *2-4 (E.D. Va. Mar. 12, 2019) (Davis,
C.J.) (“[A] defendant must satisfy all three provisions [of
Section 1326(d)] before he may wage a collateral attack on
the prior removal order.”); United States v. Romero-Caceres,
356 F. Supp. 3d 541, 547 (E.D. Va. 2018) (“[D]efendant here
may not challenge the June 2007 Removal Order unless he
meets all three

§ 1326(d) requirements.”). 9

*5 The burden of proof to establish that the elements
of
Section 1326(d) have been satisfied “rests with the
defendant.” United States v. Galcia, No. 1:15cr59, 2016 WL
4054926, *2 (E.D. Va. July 26, 2016). And, that burden must
be met by “a preponderance of the evidence.” Id. (citing

App. 5a

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

3

United States v. Garcia, Slip Copy (2019)

several cases). If the alien meets his burden, “the illegal
reentry charge must be dismissed as a matter of law.”
Shami, 434 F.3d at 663 (citing Wilson).
In sum, collateral challenges in
must proceed pursuant to

El

Section 1326 prosecutions

Section 1326(d) because of the

clear statutory text and articulated Congressional intent. 10
Accordingly, if the Court determines that Lucas has failed to
satisfy any of the three elements of
Section 1326(d), his
collateral challenge must be rejected, and the Motion will be
denied. Conversely, if Lucas satisfies (or is excused from)
the three elements of

Section 1326(d), the illegal reentry

indictment must be dismissed. See
663.

El Shami, 434 F.3d at

II. Analysis
Lucas makes two arguments in support of the Motion. See
ECF No. 10 at 2-30. First, he argues that his 2010 public
records forgery conviction was not an “aggravated felony,”
and that immigration officials acted ultra vires when they
removed him on that basis. Second, he argues that he can
satisfy the collateral attack requirements of
8 U.S.C. §
1326(d). The Government takes the opposite view on both
arguments. See generally ECF No. 12. Neither argument
made by Lucas is meritorious, and thus, the Motion was
denied.

crime without a duty to do so,” ECF No. 10 at 13; and (3)
that Virginia's definition of “aiding and abetting” a crime
sweeps more broadly than the federal definition of “aiding
and abetting,” which requires “an affirmative act.” 11 Id.
Although Lucas recognizes that, in Alvarez v. Lynch, 828 F.3d
288 (4th Cir. 2016), the Fourth Circuit held that the offense
proscribed by Va. Code. § 18.2-168 was an “aggravated
felony,” he argues that the overbreadth arguments that he
is raising here were not raised in the Court of Appeals in
Alvarez. ECF No. 10 at 20-22 (citing
United States v.
McLeod, 808 F.3d 972 (4th Cir. 2015) for the proposition that
Lucas can raise a different argument under the categorical
approach than one decided in a prior case).
*6 The Government argues that the Alvarez decision
(Virginia Code § 18.2-168 creates an “aggravated felony”
offense) and that should end the analysis. See ECF No. 12
at 11-18. Alternatively, the Government asserts that Lucas
misunderstands Virginia law on the overbreadth arguments
that he makes. Id. at 12-21. The Government is correct on
both points.
The Virginia Code provision under which Lucas was
convicted in 2010 (and which was determined to be an
“aggravated felony”), § 18.2-168, provides:

If any person forge a public record,
or certificate, return, or attestation, of
any public officer or public employee,
in relation to any matter wherein such
certificate, return, or attestation may
be received as legal proof, or utter,
or attempt to employ as true, such
forged record, certificate, return, or
attestation, knowing the same to be
forged, he shall be guilty of a Class 4
felony.

A. Va. Code § 18.2-168 Is An Aggravated Felony
Under The INA And The Ultra Vires Argument Fails
Lucas first argues that Va. Code § 18.2-168 is broader than the
generic federal definition of forgery, and therefore, applying
the categorical approach, it cannot qualify as an “aggravated
felony” for removal under the INA. See ECF No. 10 at 6-22.
Accordingly, says Lucas, immigration authorities acted ultra
vires, or without “subject matter jurisdiction to enter the
[removal] order at all.” Id. at 3.
Lucas' overbreadth argument is two-fold. First, he posits
that Virginia forgery law allows prosecution for “simple
possession” of a forged document without knowledge of its
falsity. Second, he argues: (1) that the Court must consider
“aiding and abetting” liability as part of the substantive
offense; (2) that under Virginia law, “aiding and abetting”
a crime can mean as little as “passive acquiescence in a
crime—that is, a failure to object or intervene to prevent a

(emphasis added). Under
8 U.S.C. 1101(a) (43) (R), part
of the INA, an “aggravated felony” for immigration purposes
is: “an offense relating to commercial bribery, counterfeiting,
forgery, or trafficking in vehicles the identification numbers
of which have been altered for which the term of
imprisonment is at least one year.” (emphasis added).

App. 6a

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

4

United States v. Garcia, Slip Copy (2019)

In Alvarez, the Court of Appeals was “asked to decide
whether a Virginia conviction for forgery of a public record
is an aggravated felony under the INA, which is defined
as ‘an offense relating to...forgery...for which the term of
imprisonment is at least one year.’ ” 828 F.3d at 292. The
Virginia statute considered by the Court of Appeals was
the precise statute at issue in this case. The Fourth Circuit
concluded that such a conviction was an “aggravated felony”
because the Virginia forgery and the generic federal forgery
definitions matched. See id. at 293-98; id. at 293 (noting
that Congress used the language “relating to” the forgery
offense, indicating that Congress intended a “more expansive
definition”).
The issue in Alvarez was the so-called “false making” element
of generic federal forgery, and whether, under Virginia law,
one could be convicted of forgery “where the document
in question is genuine but merely contains some false
information.” Id. at 294-95. The Fourth Circuit determined
that “one commits generic federal forgery only where a
document is invalid or falsely executed. If a document is
genuinely executed but merely contains false information, a
conviction for federal forgery cannot lie.” Id. at 294. Then, the
Court looked to Virginia's public records forgery statute (the
same at issue here), and held that it requires “the false making
or materially altering with intent to defraud, of any writing
which, if genuine, might apparently be of legal efficacy, or
the foundation of legal liability.” Id. at 294. And, like federal
forgery, a Virginia forgery defendant must have altered the
genuineness and authenticity of a document. See id. at 295.
In Alvarez, the Court of Appeals concluded that Alvarez had
failed to show that there was a “realistic probability, not a
theoretical possibility, that [Virginia] would apply its statute
to conduct that falls outside the generic definition of a crime.”
Id. at 295-98 (alteration in original). And, then the Court
held that a conviction under Virginia's forgery statute was an
“aggravated felony” under the INA. Id. at 295-98 (alteration
in original); id. at 298 (“Virginia forgery as set forth in
Virginia Code Ann. § 18.2-168 is categorically ‘forgery’
under the INA; therefore, Virginia forgery necessarily relates
to forgery under the aggravated felony provision.”).
*7 Lucas is correct that Alvarez did not directly address his
overbreadth arguments related to “simple possession” of a
forged document and aiding and abetting liability. However,
as set forth below, Alvarez nonetheless establishes that Lucas'
conviction under Va. Code § 18.2-168 is an aggravated felony.

His “simple possession” and aiding and abetting arguments
do not change the analysis.
First, Alvarez made clear that the INA's definition of
“forgery” “is one of the many aggravated felonies the INA
defines ‘expansive[ly]’ as merely ‘relating to’ a generic
federal crime.” 828 F.3d at 293 (quoting
Denis v.
Attorney Gen. of U.S., 633 F.3d 201, 207 (3d Cir. 2011));
see also Cardoza Salazar v. Barr,–––F. 3d––––, 2019 WL
3483186, *2-4 (8th Cir. Aug. 1, 2019) (citing Alvarez for
the proposition that “ [o]ther circuits have taken a similarlyexpansive approach in considering the words ‘related to
forgery’ ”). When the words “related to” are used, the fact
that the state and federal definitions do not precisely match
“is not determinative.” See Alvarez, 828 F.3d at 293 (citation
omitted). 12 Thus, even if Alvarez did not address the exact
arguments that Lucas raises, the Court of Appeals' expansive
8 U.S.C. §
understanding of the words “relating to” in
1101(a) (43) (R) teaches that what Lucas was convicted of
was an “aggravated felony.”
Second, Lucas has not shown a “realistic probability” that Va.
Code § 18.2-168 would be applied to “simple possession”
of a forged document. Lucas cites several cases for the
proposition that possession of a forged document establishes
a presumption that the possessor knew that the document
was forged and warrants submitting a forgery case to the
jury. See Oliver v. Commonwealth, 544 S.E.2d 870, 874 (Va.
App. 2001));
Fitzgerald v. Commonwealth, 313 S.E.2d
394, 395-96 (Va. 1984). These cases recite the same definition
of forgery that Alvarez does: forgery is the “the false making
or materially altering with intent to defraud, of any writing
which, if genuine, might apparently be of legal efficacy, or
the foundation of legal liability.” Alvarez, 828 F.3d at 294;
Fitzgerald, 313 S.E.2d at 395; Oliver, 544 S.E.2d at 874.
In other words, there is a mens rea requirement to Virginia
forgery.
“Possession of a forged check by an accused, which he
claims as a payee, is prima facie evidence that he either
forged the instrument or procured it to be forged,” but
it is not a conclusive presumption, and may be rebutted.
See
Fitzgerald, 313 S.E.2d at 395. The decisions cited
by Lucas do not support that Virginia law has eliminated
a mens rea requirement for a forgery conviction. Rather,
those decisions simply explain the types of evidence from
which a factfinder could make a finding that a defendant had

App. 7a

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

5

United States v. Garcia, Slip Copy (2019)

the requisite mens rea. Lucas is incorrect that Virginia law
permits a conviction for forgery based on “simple possession”
of the forged document without the requisite mens rea. Thus,
his argument that Va. Code § 18.2-168 is broader than generic
federal forgery because it allows a conviction for “simple
possession” fails.
Third, Virginia aiding and abetting law is not broader than
the generic federal definition, an argument that this Court has
already rejected. See United States v. Ward, No. 3:18-cr-44
(E.D. Va. Dec. 6, 2018). In Ward, the Court rejected a similar
argument in the context of a drug offense:
*8 Ward's aiding-and-abetting argument-that “Virginia's
aiding and abetting liability is overbroad and indivisible,”
ECF No. 25-similarly fails, because there is no case law to
support that Virginia has a different standard of aiding-andabetting liability than the federal standard. Generic aiding
and abetting has two aspects. First, the defendant must
have the “ ‘specific intent to facilitate the commission of
a crime by someone else.’ ”
United States v. ValdiviaFlores, 876 F.3d 1201, 1207 (9th Cir. 2017) (emphasis
in original) (quoting United States v. Garcia, 400 F. 3d
816, 819 (9th Cir. 2005)). Second, the aider and abettor
must render some assistance to the principal “ ‘by words,
acts, encouragement, support, or presence.’ ”
United
States v. Cammorto, 859 F.3d 311, 317 (4th Cir. 2017)
(emphasis in original) (quoting Rosemond v. United States,
572 U.S. 1240, 1246 (2014)). Virginia's interpretation of
accomplice liability is consistent with this formulation.
See
Thomas v. Commonwealth, 688 S.E. 2d 220, 235
(Va. 2010) (stating that the aider and abettor must commit
“some overt act done knowingly in furtherance of the
commission of the crime” or “share[ ] in the criminal
intent of the principal committing the crime” and that an
accomplice must “encourag[e], incit[e], or in some manner
offer[ ] aid in the commission of the crime,” including by
being “present lending countenance”).
Ward, Mem. Op. at 13-14 n.3. Undeterred, Lucas cites one
unpublished Virginia Court of Appeals decision, Spruill v.
Commonwealth, 2002 WL 31655322 (Va. Ct. App. 2002)
(unpublished), for the proposition that “Virginia's version of
accomplice liability include[s] being present and failing to
intervene while a friend commits a crime.” ECF No. 10 at 18.
Spruill states that “mere presence is not sufficient to establish
that one is a principal in the second degree”; however,
presence “at the commission of a crime without disapproving
or opposing it, is evidence from which, in connection with

other circumstances, it is competent for the [judge or] jury
to infer that he assented thereto, lent to it his countenance
and approval, and was thereby aiding and abetting the same.”
2002 WL 31655322 at *3 (emphasis added) (alteration in
original) (citations omitted). And, in Spruill, the evidence
showed that Spruill was part of (and had the intent to be
involved in) the check forging scheme. See id. at *3-4. Thus, it
was not simply Spruill's presence at the scene that established
her liability. See id. Read as a whole, Spruill does not establish
that Virginia aiding and abetting law is broader than federal
law.
In sum, Alvarez establishes that
8 U.S.C. 1101(a)(43)
(R) is read broadly to cover offenses “relating to” forgery,
which Lucas' conviction for “public records forgery” clearly
is. And, Lucas' overbreadth arguments lack merit. Thus, his
2010 conviction under Va. Code § 18.2-168 was properly
classified as an “aggravated felony” under the INA. Because
Lucas' ultra vires argument rests entirely on the argument that
Va. Code § 18.2-168 is not an “aggravated felony,” the ultra
vires argument likewise fails. 13

B. Lucas Cannot Satisfy The Requirements Of
8
U.S.C. § 1326(d)
Lucas next argues that he can satisfy the requirements of
8 U.S.C. § 1326(d) to collaterally attack the 2010 Final
Section 1326(d)
Order. At bottom, Lucas argues under
that, although he purportedly waived his right to challenge
the 2010 Final Order, that waiver was invalid because the
I-851 form was not explained to him in a language that he
understood (Spanish), and that, for like reason, he was not
adequately informed that he could challenge the “aggravated
felony” determination. See ECF No. 10 at 23-30. Lucas also
asserts that service of the I-851 form in a language that he does
not understand and deportation on a legally erroneous basis
are due process violations, and that he can show prejudice.
Id. at 25-30. The Government, on the other hand, argues
that Lucas cannot show that: (1) he is excused from the
administrative exhaustion requirement of
Section 1326(d)
(1); (2) he was deprived of judicial review, as required to
satisfy
Section 1326(d)(2); and (3) entry of the 2010
Final Order was fundamentally unfair, as required to satisfy
Section 1326(d)(3). See ECF No. 12 at 6-19.

App. 8a

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

6

United States v. Garcia, Slip Copy (2019)

*9 As set forth below, Lucas has the burden of
demonstrating that his waiver of judicial review was invalid.
He has not satisfied his burden here, and thus cannot show
that he was deprived of judicial review. Further, because (as
discussed above), Lucas' public records forgery conviction
was properly classified as an “aggravated felony,” he is unable
to demonstrate prejudice. Thus, he cannot satisfy all three
requirements of
denied under

to remain in the United States for 14
calendar days so that you may file
a petition for review of this order to
the appropriate U.S. Circuit Court of
Appeals as provided for in... U.S.C.
§ 1252. You may waive your right to
remain in the United States for this 14day period.

Section 1326 (d), and the Motion was
Section 1326(d). See

El Shami, 434 F.3d

at 663 ( Section 1326 (d) requirements are “listed in the
conjunctive, so a defendant must satisfy all three in order to
prevail”).

(1) Lucas Is Excused From

Section 1326(d)(1)

Lucas did not seek any administrative remedies for the 2010
Final Order (and, indeed, selected a check-box on the I-851
form indicating that he did not wish to challenge his removal).
However, the Court has previously held that “in expedited
removal proceedings involving the I-851 form (as here), an
alien need not have raised a legal challenge to the expedited
removal in order to satisfy an administrative exhaustion
requirement because there was no available administrative
remedy.” Segura-Virgen, 2019 WL 2146594 at *8-9. In
other words, because the I-851 form does not provide an
administrative route to challenge the “aggravated felony”
determination, the alien is excused from the administrative
exhaustion requirement of

Gov't Ex. 3 (front side).
The I-851 form goes on to say that the alien can file a
petition for review within 30 days (i.e. after removal from
the United States). Id. And, on the back side of the I-851
form, Lucas selected a check-box stating: “I understand that
I have the right to remain in the United States for 14 calendar
days in order to apply for judicial review. I do not wish this
opportunity. I waive this right.” Gov't Ex. 3 (back side).
Notwithstanding that he signed a waiver of the right to judicial
review, Lucas now argues that his waiver is invalid because
the I-851 form was served on and explained to him in English,
which he says he did not speak or understand. 14 ECF No. 10
at 23. Under immigration regulations, 8 C.F.R. § 238 (b) (2)
(v), immigration officials:

8 U.S.C. § 1326(d)(1). See id.;

must either provide the alien with a
written translation of the Notice of
Intent or explain the contents of the
Notice of Intent to the alien in the
alien's native language or in a language
that the alien understands.

Etienne v. Lynch, 813 F.3d 135, 137-42 (4th Cir. 2015).
Because the same I-851 form is at issue here, the analysis from
Segura-Virgen applies, and Lucas is excused from
1326(d)(1).

Section

(2) Lucas Has Not Demonstrated That
He Was Deprived Of Judicial Review

(emphasis added); see also Lopez-Collazo, 824 F.3d at 462
(describing this requirement).

To satisfy
Section 1326(d)(2), Lucas must demonstrate
that the 2010 removal proceedings improperly deprived him
of judicial review. That he has not done.
There is no dispute that Lucas did not seek judicial review of
the 2010 Final Order. The I-851 form states clearly that an
alien has a right:

*10 Here, the I-851 form (which includes the waiver form)
was written in English and was served on and explained
to Lucas in English by Long. If Lucas did not speak or
understand English in 2010, as he contends, any waiver of
his right to judicial review cannot have been “considered
[and] intelligent.” See

App. 9a

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

Mendoza-Lopez, 481 U.S. at

7

United States v. Garcia, Slip Copy (2019)

840; cf.
Narine v. Holder, 559 F.3d 246, 249-50 (4th Cir.
2009) (waiver of appellate rights must be “knowingly and
Lopez-Collazo, 824 F.3d at
intelligently made”); see also
462 (due process violation where I-851 form was provided in
English to alien who did not speak or understand English);
United States v. Reyes-Bonilla, 671 F.3d 1036, 1044 (9th
Cir. 2012) (waiver of rights on I-851 form “cannot be found to
have been considered or intelligent where there is no evidence
that the detainee was first advised of those rights in a language
he could understand”).
However, before assessing the validity of Lucas' waiver, it is
necessary to determine which party bears the burden to prove
the validity of the waiver.

(a) Lucas Bears The Burden To Prove Invalid Waiver
This case more squarely presents an issue that the Court left
open in Segura-Virgen: which party bears the burden in a
Section 1326 prosecution to prove that the alien validly
waived his right to judicial review. See Segura-Virgen, 2019
WL 2146594 at *9. The parties stake out opposite positions,
with the Government arguing that it is Lucas' burden to show
that his waiver was invalid, while Lucas argues that the
Government must show that his waiver was valid.
The Fourth Circuit has not addressed which party bears
the burden of establishing the validity of an alien's waiver
of administrative and judicial review rights in immigration
proceedings, but unpublished authority suggests that the alien
must “demonstrate that his waiver was invalid.” See United
States v. Lopez, 667 Fed. Appx. 837, 838 n.l (4th Cir. 2016)
(per curium) (unpublished). 15 The Fourth Circuit authority
is consistent with the approaches of at least two Courts of
Appeals that have held that the alien bears the burden to show
that his written waiver was invalid. See
United States v.
Soto-Mateo, 799 F.3d 117, 120-122 (1st Cir. 2015) (alien
bears the burden of proving that written waiver is invalid);
Richardson v. United States, 558 F.3d 216, 219-22 (3d Cir.
2009) (same). Taken together, Soto-Mateo and Richardson
teach that, although the Government must demonstrate the
existence of a written waiver, it is the defendant's burden
to prove that the waiver is invalid. That is but a logical
application of the rule that the burden is on the defendant
to meet all three factors showing entitlement to relief under

Section 1326(d). Where, as here, the defendant asserts an
invalid waiver as the predicate for satisfying one of those
factors, the burden is on the defendant to show invalidity and
the defendant bears the risk of non-persuasion on that issue.
See

Soto-Mateo, 799 F.3d at 121.

Several other Courts of Appeals have implied that the alien
bears the burden to show an invalid waiver without squarely
United States v. Baptist, 759
so holding. For example, in
F.3d 690, 695-97 (7th Cir. 2014), the Seventh Circuit held that
the alien had failed to “put forth enough evidence to convince
us that the stipulated removal order he signed was invalid.”
And, in United States v. Rangel de Aguilar, 308 F.3d 1134,
1137-39 (10th Cir. 2002), the Tenth Circuit held that the alien
presented no evidence of a coerced waiver; that she did not
understand the rights available to her; or that immigration
officials mislead her as to her rights.
*11 On the other hand, the minority position, which has been
followed by the Ninth Circuit and at least two district courts
in this Circuit, holds that it is the Government's burden to
prove that the alien's waiver was valid. See

United States

v. Gomez, 757 F.3d 885, 893-94 (9th Cir. 2014);
United
States v. Lopez-Collazo, 105 F. Supp. 3d 497, 511 (D. Md.
2015), rev'd on other grounds,

824 F.3d 453 (4th Cir.

2016); United States v. Merino-Hernandez, 46 F. Supp. 3d
602, 607 (D. Md. 2014).
The approach outlined in Soto-Mateo and Richardson, and
supported by the reasoning in Baptist, Rangel de Aguilar,
and Lopez, is persuasive and reflects the better view. As the
First Circuit explained, “ section 1326(d) places the burden
on the defendant to demonstrate an entitlement to relief”
and therefore “it follows that the defendant bears the burden
of proving his eligibility for any exception to the statutory
requirements,” like excusal from seeking administrative or
judicial review based on an invalid waiver. See
SotoMateo, 799 F.3d at 121 (alterations and citations omitted);
see also Richardson, 558 F.3d at 221-22 (discussing how a
waiver of rights in a criminal proceeding differs from waivers
in a civil deportation proceeding). The Fourth Circuit has
held that the alien has the burden to satisfy the

Section

1326(d) requirements, see, e.g.,
Cortez, 930 F.3d at 356
(alien must make three statutory showings to collaterally

App. 10a

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

8

United States v. Garcia, Slip Copy (2019)

attack prior deportation), and Lopez suggests that the burden
extends to demonstrating that the alien's waiver of rights in an
immigration proceeding was invalid. Lopez, 667 Fed. Appx.
at 838 n.l. Applying the teachings of Lopez, Soto-Mateo, and
Richardson, the Court holds that, in a prosecution under
8
U.S.C. § 1326, the alien bears the burden to establish that
his or her written waiver of administrative or judicial review
rights is invalid. 16

(b) Lucas Has Not Satisfied His Burden
Having established that Lucas bears the burden to
demonstrate that his waiver of judicial review was invalid, the
Court further concludes that Lucas' evidence does not satisfy
his burden. The Court finds that Lucas has not met his burden
to show that he did not speak and understand English in 2010
to render his written waiver of judicial review invalid.
The Government has presented Lucas' written and signed
waiver of judicial review on the I-851 form. Gov't Ex.
3. Lucas then presented the results of an Oral Proficiency
Interview (“OPI”) that he did with Dr. Laura Middlebrooks
(“Dr. Middlebrooks”) on June 26, 2019. Def. Ex. A
(hereinafter, the “Middlebrooks report”). According to the
Middlebrooks report, Garcia (in 2019) ranks as a “Novice
Low English speaker on the American Council of Teachers
of Foreign Language (ACTFL) proficiency scale...the lowest
possible rating.” Def. Ex. A at 1.
Dr. Middlebrooks 17 testified during the August 7, 2019
hearing about the OPI and her administration of it to Lucas.
She testified that the OPI is used to evaluate linguistic abilities
and can be used in any setting in which linguistic abilities
must be assessed. Middlebrooks further testified that Lucas
rated as the lowest level novice English speaker and that, in
her opinion, Lucas would not have been able to understand
the I-851 form without the assistance of an interpreter.
*12
On
cross-examination,
Dr.
Middlebrooks
acknowledged that: (1) she did not review the I-851 form
with Lucas; (2) she did not inquire of Lucas how long he
had been in the United States prior to 2019; (3) one can lose
a foreign language skill if it is not used; and (4) the OPI
tests language proficiency only at the time it was given (here,
2019). Dr. Middlebrooks acknowledged that she has no way
to know (based on the OPI) whether Lucas” Englishspeaking
skills were better or worse in 2010 than they are in 2019. Dr.

Middlebrooks also testified that she utilized one technique
to account for potential malingering (i.e. an attempt by the
OPI interviewee to downplay his or her language skills):
alternating between easier and more difficult questions.
On redirect, Dr. Middlebrooks stated that one would need to
score in the “advanced” category on the OPI to understand
the I-851 form. And, although the OPI cannot be administered
retroactively, she opined that Lucas' language skills in
2019 and 2010 likely did not differ significantly. Finally,
she confirmed that she had no evidence that Lucas was
malingering.
The Middlebrooks report and Dr. Middlebrooks testimony
do provide evidence on Lucas' English proficiency in 2019
(that he is a “Novice Low English speaker”), when the OPI
was administered. However, Dr. Middlebrooks acknowledged
that the OPI could not be used to assess Lucas' language
skills in 2010. She also acknowledged that she did not ask
Lucas specifically about the I-851 form or about how long
he had been in the United States. Nor could she specifically
opine about Lucas' language skill in 2010 or how it might
have changed between then and 2019. And, in perspective
of the other evidence in the record, the evidence from Dr.
Middlebrooks alone is insufficient to meet Lucas' burden that
he invalidly waived his right to judicial review in 2010.
There is evidence in the record that, in 2010, Lucas actually
spoke and understood English. Officer Long, who served
the I-851 form on Lucas in English, testified that it was his
standard practice to bring both an English and a Spanish I-851
form to his interview with the alien. He then asked the alien
which language he preferred. If the alien preferred Spanish,
Long would use the Spanish version of the I-851 form and
call the “language line” to have the I-851 explained to the
alien in Spanish. Although Long testified that he did not
specifically remember Lucas, he testified that the fact that he
(Long) had served and explained the I-851 form in English
means that, in 2010, Lucas would have indicated that he spoke
and understood English. Otherwise, Long would have used
the Spanish form and activated the service of an interpreter
on the language line. The testimony of Long, an experienced
immigration officer, about his standard practice of serving
the I-851 form, is powerful evidence that Lucas spoke and
understood English in 2010.
Further, the record shows that Lucas was involved in state
court proceedings in 2010. Yet, there is no evidence in
the record showing that Lucas required a Spanish-language

App. 11a

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

9

United States v. Garcia, Slip Copy (2019)

interpreter during the state court proceedings. The Court
is unwilling to presume that the state court would allow a
conviction of a defendant like Lucas without the aid of an
interpreter if he required one. Thus, the absence of evidence
that Lucas required an interpreter during the state court
proceedings further undercuts Lucas' argument that he did not
speak and understand English in 2010.
What is more, Lucas presented no evidence for the time
period between 2005 (when the record shows that he entered
the United States) and 2010 (when he was convicted of the
“aggravated felony”) suggesting that he did not speak or
understand English. Government Exhibit 2 indicates that the
offense date for the public records forgery was July 13, 2008,
meaning that Lucas must have been in Virginia at that time.
Assuming that Lucas remained in the United States for the
entire period from 2005 to 2010 (there is no evidence that he
left), and absent any evidence to the contrary (there is none),
it is reasonable to infer that Lucas was developing his English
skills during that time.
*13 Taken together, the Middlebrooks report and Dr.
Middlebrooks' testimony do not establish that Lucas was
served the I-851 form in a language that he did not understand.
See 8 C.F.R. § 238(b) (2) (v). There is sufficient evidence
in the record from which the Court concludes that Lucas
spoke and understood English in 2010. He has not met his
burden to show that he invalidly waived his right to judicial
review based on an inability to speak English. Accordingly,
he cannot demonstrate that he was improperly deprived of
judicial review, and fails to satisfy

Section 1326(d)(2).

have suffered to the specific due process violation at issue.”
Lopez-Collazo, 824 F.3d at 462.
Lucas' argument on prejudice is that, had he not suffered
the due process violations 18 in this case and had challenged
his “aggravated felony” conviction, there is a “reasonable
probability” that he would not have been deported. ECF No.
10 at 27. That argument is very much lacking in merit.
As discussed above, immigration officials properly classified
his public records forgery conviction as an “aggravated
felony.” An alien who is subject to expedited removal
8 U.S.C. § 1228 for having
proceedings under
committed an “aggravated felony” is statutorily ineligible
for discretionary relief, like voluntary departure. See
8
U.S.C. § 1228(b)(5) (“No alien described in this section shall
be eligible for any relief from removal that the Attorney
General may grant in the Attorney General's discretion”);
Lopez-Collazo, 824 F.3d at 457 (noting that “aliens
subject to expedited removal are barred from discretionary
forms of relief such as voluntary departure”);
id. at 465
(same). In other words, where immigration officials properly
categorize an alien's conviction as an “aggravated felony,”
his “deportation [is] a foregone conclusion.”

United States v. Garcia-Martinez, 228 F.3d 956, 963 (9th
Cir. 2000). And, the Court has concluded above that Lucas
was convicted of an “aggravated felony.” Thus, there is no
question that he would have been deported, even if he had
challenged the “aggravated felony” determination. He thus
cannot show prejudice, and fails

(3) Lucas Has Failed To Satisfy
Section 1326(d)
(3) Because He Cannot Establish Prejudice
In addition, even assuming that Lucas has satisfied

Section 1326 (d) (3). 19

CONCLUSION

Section

1326(d)(2), he would fail the prejudice prong of
Section
1326(d)(3). To demonstrate prejudice, Lucas must establish
that, “but for the errors complained of, there was a reasonable
probability that he would not have been deported.”

Id. at 466;

El

Shami, 434 F.3d at 665;
Lopez-Collazo, 824 F.3d at 462.
“This is not a generalized showing of prejudice; rather,
the defendant must link the actual prejudice he claims to

*14 For the foregoing reasons, the DEFENDANT'S
MOTION TO DISMISS THE INDICTMENT (ECF No. 10)
was denied by an ORDER entered on August 9, 2019 (ECF
No. 32).
It is so ORDERED.
All Citations
Slip Copy, 2019 WL 4195345

App. 12a

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

10

United States v. Garcia, Slip Copy (2019)

Footnotes
1
2

3

4

5

The Court follows the lead of counsel for the Defendant in referring to the Defendant as “Lucas.”
The hearing on the Motion was originally scheduled for July 1, 2019, but was continued because Lucas
provided late notice to the Government that he intended to call an expert witness to testify at the hearing.
See ECF Nos. 20, 22, 24, 27.
The Government filed Lucas' Alien File, or “A-file,” with the Court. See ECF No. 19. At the August 7, 2019
hearing, the parties agreed to call the A-file “Joint Exhibit 1,” which is how the Court will refer to it in this
Opinion.
Tine testified that the type of visa that Lucas had would have required that there was an employer in the
United States willing to accept Lucas as an employee. There is no evidence in the record reflecting who that
employer was.
On the same day that Lucas was convicted for the public records forgery, he was also convicted of identity
Va. Code § 18.2-186.3), and sentenced to six months' imprisonment
theft to avoid arrest (in violation of
(with five months suspended). Gov't Ex. 2. The offense date of the identity theft to avoid arrest was also July
13, 2008. Id. There is also evidence in Lucas' A-file that Lucas was convicted of obstructing justice without

6
7

8
9

force (in violation of
Va. Code § 18.2-460) on November 3, 2010, see Joint Ex. 1 at 33-L, and operating
a motor vehicle without a license (in violation of Va. Code § 46.2-300) on September 30, 2010. See Joint
Ex. 1 at 35-L.
As discussed further below, Lucas contends that he did not speak or understand English when served with
the I-851 form. His native language is Spanish.
This statutory provision defines as an “aggravated felony” “an offense relating to commercial bribery,
counterfeiting, forgery, or trafficking in vehicles the identification numbers of which have been altered
for which the term of imprisonment is at least one year” (emphasis added). The Government's witness,
Deportation Officer Roy Long (“Long”), testified that he made the determination of whether the conviction
qualified as an “aggravated felony” in this case by looking at the nature of the conviction and the length of
the sentence that could be imposed.
Long testified that he (Long) would have written “Guatemala” in the blank.
As the Court discussed in Gonzalez-Ferretiz, language in Moreno-Tapia and a recent opinion by Judge
Brinkema suggest that collateral challenges outside of
Section 1326(d) might be possible. See MorenoTapia, 848 F.3d at 170 (“We need not decide today...whether due process might in some circumstances
demand that an immigration order based on an unconstitutional conviction be subject to collateral attack.”);
United States v. Rivera Lopez, 355 F. Supp. 3d 428, 435 (E.D. Va. 2018) (it “remains an open question”
whether “due process requires that a defendant be given an opportunity to bring a collateral attack beyond
the requirements and limitations of

§ 1326(d)”) (emphasis in original).

Cortez teaches that such cases, if any, will be exceedingly rare. See
Cortez, 930 F.3d at 356-58 (noting
that Cortez must demonstrate that “there is some exception-to-the-exception that would allow him to bypass
these normal requirements” of
Section 1326(d));
id. at 357-58 (rejecting “exception-to-the-exception”
based on Cortez's subject matter jurisdiction argument).
10

The “Section-by-Section” analysis of the legislation that added
Section 1326(d) states that the new
subsection “allow[s] a court in a criminal proceeding against a deported alien who re-enters the U.S. to reexamine the underlying deportation order only if the alien” satisfies the three requirements of
Section
1326(d). 140 Cong. Rec. S.5558-01 (daily ed. May 11, 1994), 1994 WL 181390, at *S5571 (emphasis added).
“This language taken from

United States
v. Mendoza-Lopez,
481 U.S. 828 (1987), is intended to ensure
App.
13a

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

11

United States v. Garcia, Slip Copy (2019)

11

12
13

14

15
16

17
18

19

that minimum due process was followed in the original deportation proceeding while preventing wholesale,
time consuming attacks on underlying deportation orders.” Id.
This argument leads to absurd results because it would mean that no Virginia criminal statute could qualify as
an “aggravated felony” under the INA or any other federal statute requiring the Court to apply the categorical
approach. See, e.g., United States v. Brown, 333 U.S. 18, 27 (1948) (“No rule of construction necessitates
our acceptance of an interpretation resulting in patently absurd consequences.”).
The Alvarez Court concluded that the offenses matched; therefore, they necessarily related to each other.
See 828 F.3d at 293.
Additionally, this Court has previously rejected similar ultra vires arguments in several cases, holding that
arguments of the type Lucas raises must be brought pursuant to the requirements of
8 U.S.C. § 1326(d).
See United States v. Segura-Virgen, ––– F. Supp. 3d ––––, 2019 WL 2146594, *7-8 (E.D. Va. May 16, 2019);
United States v. Gonzalez-Ferretiz, 2019 WL 943388, *5-6 (E.D. Va. Feb. 26, 2019). The Court rejects Lucas'
ultra vires argument on the basis of those decisions too.
Lucas also argued that his waiver was invalid because he was not informed that he could challenge the
“aggravated felony” determination. The Court has previously rejected this argument in the same context, and
does so again for the reasons set forth in Segura-Virgen, 2019 WL 2146594 at *9-11.
Of course, unpublished opinions are not binding, but they can be considered. Here, the decision in Lopez
is informative.
Of course, this assumes that the Government has introduced a written waiver of such rights. See
SotoMateo, 799 F.3d at 121 (alien bears the burden to show invalidity where the “government produces a written
and signed waiver of rights”). The Court need not decide the result if the Government could not provide such
a written waiver.
Lucas presented Dr. Middlebrooks as an expert witness, and the Government did not object to that
designation.
The due process violations that he asserts are: (1) that immigration officials served and explained the I-851
form in a language that he did not understand; and (2) that he was “not deportable as charged.” ECF No.
10 at 25-26.
The Court recognizes that, in assessing the prejudice requirement of

Section 1326(d)(3), Lopez-Collazo

requires that prejudice be examined under the law at the time of the alien's removal. See
824 F. 3d at
462-67. In Lopez-Collazo, there was Fourth Circuit precedent at the time of the alien's removal establishing
that his conviction was properly an “aggravated felony.”

Id. at 463-66. The District Court, however,

had applied current law to determine that the conviction was not an “aggravated felony.”
Id. at 466-67.
Conversely, at the time of Lucas' removal in 2010, there was no authority on whether Va. Code § 18.2-168
was an “aggravated felony” under the INA (Alvarez was decided in 2016). In the absence of authority of the
sort that existed in Lopez-Collazo, the parties agreed that current law should be applied. ECF No. 28 at 6-7;
ECF No. 29 at 2-3. Based on the “relating to...forgery” language in
8 U.S.C. 1101(a) (43) (R), the lack
of merit to Lucas' overbreadth arguments, and the teachings of Alvarez, it is fair to conclude that, whether
in 2010 or 2019, the Fourth Circuit would have held that Lucas' public records forgery conviction was an
“aggravated felony.” Thus, he cannot show prejudice.
End of Document

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

App. 14a

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

12

